                                                             UNITED STATES DEPARTMENT OF COMMERCE
                                                             Office of Inspector General
                                                             Washington. D.C. 20230




December 23, 2013


MEMORANDUM FOR:               Simon Szykman
                              Chief Information Officer



FROM:                         Allen Crawley   ~ ~~ +.-- AJvle,._ ( ~
                              Assistant Inspector General for Systems Acquisition
                               and IT Security

SUBJECT: 	                    Audit of Commerce's Cloud-computing Environments

We plan to conduct an audit of the Department's cloud-computing efforts. This work is part of
a federal government-wide audit sponsored by the Council of Inspectors General on Integrity
and Efficiency (CIGIE). The objectives will be to (I) evaluate the Department's efforts to adopt
cloud-computing technologies and (2) review executed contracts between the Department's
bureaus and cloud service providers for compliance with applicable standards. The results of
our work will also be included in a consolidated CIGIE report.

We will contact your audit liaison to schedule an entrance conference. Our fieldwork will begin
Commerce-wide. Based on the results of a cloud computing survey, we will make selections
from bureaus as to which systems we will include in our detailed audit testing. We plan to
interview program officials and review pertinent records related to Commerce cloud systems.

To begin our review, we are requesting some initial documentation that we will need for the
audit. Please provide us by January 30, 2014, with a completed cloud computing survey (see
attachment}, in electronic form at if poss ible.

If you have any questions, please call me at (202) 482-1855 or Dr. Ping Sun, Director for IT
Security, at (202) 482-6121.

Attachment

cc: 	   lzella Dornell, Deputy Chief Information Officer
        Kirit Amin, Deputy Chief Information Officer and Chief Technology Officer
        Rod Turk, Director, Office of Cyber Security, and Chief Information Security Officer
        Brian Callahan, Chief Information Officer, BEA
        Eddie Donnell, Acting Chief Information Officer, BIS
        Brian McGrath, Chief Information Officer, Census
        Mark Johnson, Acting Chief Information Officer, EDA
        Ken Berman, Acting Chief Information Officer, ITA
        Del Brockett, Chief Information Officer, NIST
        Joseph Klimavicz, Chief Information Officer, NOAA
Daniel Drew, Chief Information Officer, NTIA
Keith Sinner, Chief Information Officer, NTIS
john B. Owens II, Chief Information Officer, USPTO
Susan Schultz Searcy, Audit Liaison, Office of the Chief Information Officer
                                                                                                                                                  CIGIE Cloud Computing Survey

Federal Department:

Purpose: As part of a Government-wide effort, we are soliciting information on cloud computing technologies deployed by Federal Executive Branch Departments
Instructions: Complete the fields included within the survey for all cloud systems deployed by the respective Department/Agency and return to the Inspector General's office.


                                                                                                                                                                                                         FIPS 199 security
                                                                                                                                                                                                         category by type

                                                                                                                                                                                   Cloud Service Model                                        Contract       Total      Signed Service    Contracting
                                                                                 Description of                                                                Type (Iaas, SaaS,                                             Date Contract                                                                System Point of Contract Award
   Department/Agency             IT Service Name         IT Application Name                      Cloud Service Provider Name       Reseller (If Applicable)                         (Private, Public,    C      I     A                   Length (Base +   Contract   Level Agreement      Officer's
                                                                                    Service                                                                      PaaS, Naas)                                                   Initated                                                                       Contact           ID
                                                                                                                                                                                   Community, Hybrid)                                      Option Years)     Value           (SLA)       Representative




Prepared by:
Reveiewed by:
